Nos. 20-542, 20-574

 

 

IN THE

Supreme Court of the United States

REPUBLICAN PARTY OF PENNSYLVANIA,

Petitioner,
v.

KATHY BOOCKVAR, IN HER OFFICIAL CAPACITY AS
PENNSYLVANIA SECRETARY OF STATE, ET AL.,

Respondents.

JOSEPH B. SCARNATI III, ET AL.,

Petitioners,
v.

PENNSYLVANIA DEMOCRATIC PARTY, ET AL.,
Respondents.

On Petition for Writ of Certiorari to the
Supreme Court of Pennsylvania

BRIEF OF LUZERNE COUNTY BOARD
OF ELECTIONS IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,549 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 30, 2020.

Colin Casey fe

Wilson-Epes Printing Co., Inc.
